                   U.S. Department of Agriculture

                      Office of Inspector General
                                  Midwest Region




         Audit Report
Egg Products Processing Inspection




                       Report No. 24601-0008-Ch
                                    August 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20250




DATE:         August 23, 2007

REPLY TO
ATTN OF:      24601-0008-Ch

TO:           Alfred V. Almanza
              Administrator
              Food Safety and Inspection Service

ATTN:         William C. Smith
              Assistant Administrator
              Office of Program Evaluation, Enforcement and Review

FROM:         Robert W. Young       /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Egg Products Processing Inspection


This report presents the results of our audit of egg and egg product inspections as performed by
the Food Safety and Inspection Service. Our audit evaluated management controls over egg and
egg product inspection activities.

The agency response to the official draft report is included in exhibit B, with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report. Based on the response, we have reached management decision on all of the
recommendations. Please follow your agency’s internal procedures in forwarding documentation
for final action to the Office of the Chief Financial Officer.

Please note that Departmental Regulation 1720-1 requires final action to be completed within 12
months of management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary
Egg Products Processing Inspection

Results in Brief   Since 1995, the Food Safety and Inspection Service (FSIS) has administered
                   the U.S. Department of Agriculture’s (USDA) responsibilities under the Egg
                   Products Inspection Act of 1970 (EPIA) which, until that time, had been the
                   responsibility of the Agricultural Marketing Service (AMS). The Act
                   provides for mandatory and continuous inspection of all egg products
                   processing operations, including those that produce liquid, frozen, and dried
                   egg products. Inspectors at the 83 egg products processing plants nationwide
                   inspect facilities, equipment, and processing operations including
                   pasteurization, product formulation, packaging, labeling, drying, and
                   freezing. In addition, processed egg products are subject to laboratory testing
                   for Salmonella before being marketed to the public. Under a
                   1995 memorandum of agreement with FSIS, AMS is responsible for
                   performing quarterly visits to egg handlers who pack unbroken, consumer-
                   ready shelled eggs to verify that regulatory requirements for labeling and
                   storage temperatures are met. AMS is also responsible for reporting
                   violations to FSIS so that followup actions can be taken. FSIS retains direct
                   responsibility for performing such reviews at all other egg handlers.
                   Ultimately, for both shell eggs and processed egg products, the authority and
                   responsibility for initiating recalls rests with the Food and Drug
                   Administration (FDA).

                   We found that although FSIS has administered the egg products inspection
                   program for approximately 12 years, agency officials have not yet integrated
                   egg products into their overall management control structure including the
                   science-based Hazard Analysis and Critical Control Point (HACCP) program,
                   even though meat and poultry establishments have operated under HACCP
                   since 1998. In addition, the automated Performance Based Inspection System
                   (PBIS), which both schedules tasks and records inspection results for meat
                   and poultry establishments, has not been extended to egg products processing
                   plants and inspectors still utilize paper records which are stored onsite. FSIS
                   increasingly depends upon PBIS and other Information Technology (IT)
                   systems as part of its oversight and control processes for meat and poultry
                   products, but the new management control processes being developed and
                   implemented are largely dependent upon the availability of electronic records
                   to function. FSIS officials have stated that plans for implementing HACCP
                   have been delayed by changing policies regarding the application of the
                   system to egg processing. Officials stated that the draft proposal to extend
                   HACCP to eggs is under development, but until the clearance process is
                   completed they cannot provide timeframes for implementation. Our reviews
                   at six egg processing plants noted concerns such as potential product
                   adulteration and repeated violations involving the use of restricted eggs
                   (specifically, those that are cracked and leaking, or have foreign materials on
USDA/OIG-AUDIT/24601-0008-Ch                                                              Page i
                  the shells) in egg processing operations. Such conditions, which had not come
                  to the attention of the frontline inspectors for those plants because of the time
                  needed to review inspection records stored on paper, could result in unsafe or
                  unwholesome egg products being marketed to the public. This emphasizes the
                  need to extend HACCP and PBIS to egg products inspections so that this area
                  can be incorporated into FSIS’ overall management control structure.

                  Finally, we found that while FSIS had identified deficiencies in 2003 with
                  Canada’s controls over egg product processing plants that exported to the
                  United States, no followup visits had been made since then to verify that
                  corrective actions had been implemented. FSIS officials gave greater priority
                  to the review of meat and poultry establishments, since processed egg
                  products were considered to pose less of a health risk than some meat
                  products due to the use of the pasteurization process. In their last visit, FSIS
                  reviewers found that two Canadian egg product processing plants broke and
                  used eggs that were leaking or had foreign material on their shells.

                  Our audit found that FSIS’ Salmonella testing program is generally operating
                  as intended, with plants performing their own tests as part of the Salmonella
                  Surveillance Program and making those results available to FSIS inspectors
                  onsite. FSIS also satisfactorily performs its own laboratory tests under the
                  Salmonella Monitoring Program, to provide additional assurance that any
                  contaminated products are either disposed of or re-pasteurized. Also, in our
                  visits to six egg products processing plants, we did not note significant
                  sanitation problems or other deficiencies except as described in the findings.

Recommendations
In Brief          We recommended that FSIS develop a plan to incorporate egg product
                  inspection activities into HACCP and its IT systems. We also recommended
                  that once this has been accomplished, FSIS officials conduct trend analyses to
                  identify any serious or widespread deficiencies at egg products processing
                  plants and take appropriate corrective actions. Finally, we recommended that
                  FSIS include egg products processing plants in the next Canadian
                  equivalency review, and in future instances when visits are made to Canadian
                  meat and poultry establishments.

Agency Response   In their response, FSIS officials agreed with the findings and
                  recommendations contained in this report. We have incorporated applicable
                  portions of the response, along with our position, in the Findings and
                  Recommendations section of this report. The agency’s response is included in
                  its entirety as exhibit B of this report

OIG Position      We agree with the actions the agency has underway in response to our
                  recommendations. We have reached management decision on all three of the
                  recommendations.

USDA/OIG-AUDIT/24601-0008-Ch                                                              Page ii
Abbreviations Used in This Report

AMS               Agricultural Marketing Services
CDC               Centers for Disease Control
CFIA              Canadian Food Inspection Agency
EPIA              Egg Products Inspection Act of 1970
FSIS              Food Safety and Inspection Service
FY                Fiscal Year
HACCP             Hazard Analysis and Critical Control Point (System)
IPPS              In-Plant Performance System
IT                Information Technology
NR                Noncompliance Report
OIA               Office of International Affairs
OIG               Office of Inspector General
OPEER             Office of Program Evaluation, Enforcement and Review
PBIS              Performance Based Inspection System
SSOP              Sanitation Standard Operation Procedures
TSC               Technical Service Center
USDA              United States Department of Agriculture




USDA/OIG-AUDIT/24601-0008-Ch                                             Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Egg Product Inspection Systems and Procedures Need Updating.............................. 3

        Finding 1             FSIS Needs To Develop Electronic Monitoring Systems for Egg Product
                              Inspections............................................................................................................... 3
                                  Recommendation 1 .......................................................................................... 7
                                  Recommendation 2 .......................................................................................... 8

    Section 2. Importing of Processed Egg Products ........................................................................... 9

        Finding 2             FSIS Does Not Have Adequate Controls Over Imported Egg Products ................. 9
                                  Recommendation 3 ........................................................................................ 10

Scope and Methodology........................................................................................................................ 12

Exhibit A – Locations Visited .............................................................................................................. 13

Exhibit B – Agency Response............................................................................................................... 14




 USDA/OIG-AUDIT/24601-0008-Ch                                                                                                               Page iv
Background and Objectives
  Background       Congress passed the Egg Products Inspection Act (EPIA) in 1970. The EPIA
                   provides for the mandatory continuous inspection of the processing of liquid,
                   frozen, and dried egg products. For the next 25 years, the Poultry Division of
                   the United States Department of Agriculture’s (USDA) Agricultural
                   Marketing Service (AMS) inspected egg products to ensure they were
                   wholesome, unadulterated, and properly labeled and packaged to protect the
                   health and welfare of consumers. In May 1995, the Secretary transferred to
                   the Food Safety and Inspection Service (FSIS) the responsibility to conduct
                   inspections at egg and egg product plants.

                   Eggs and egg products are divided into two separate and distinct areas. The
                   first is consumer-ready shell eggs which are unbroken eggs packaged for sale
                   to the public. These are under FSIS oversight only while in the custody of egg
                   packers or handlers, for the purpose of ensuring that they are being
                   refrigerated at the required temperature and are labeled to show that
                   refrigeration is required. At all other times between laying and retail sale,
                   they are under the jurisdiction of the Food and Drug Administration (FDA).
                   As of fiscal year (FY) 2006, there were 513 egg packers nationwide. The
                   second area involves egg products that are processed at commercial egg
                   processing facilities where the egg shell is broken. These products include
                   whole eggs, yolks, or whites, with or without added ingredients and can be in
                   liquid, frozen, or dried form. There are currently 83 egg product processing
                   plants nationwide. To reduce the risk of Salmonella, the EPIA requires that
                   egg products must be pasteurized prior to release into commerce. Based on
                   information from FDA, which has sole authority to order recalls of either
                   shell eggs or processed egg products, there have been eight recalls of
                   processed egg products since 2002. These were all initiated by the plants
                   themselves rather than by FDA. No recalls have taken place for raw,
                   consumer-ready shell eggs. The Centers for Disease Control (CDC)
                   researches diseases affecting human health, including food-borne illnesses.
                   In 1999, CDC coordinated with FDA and FSIS to formulate an Egg Safety
                   Action Plan to identify risks to human health stemming from the consumption
                   of eggs and egg products.

                   One or more FSIS egg product inspectors are assigned to continuously
                   inspect each of the 83 egg product processing plants nationwide. Inspectors
                   are primarily responsible for inspection of all egg product formulation,
                   pasteurization, packaging, labeling, freezing, and drying. To do this, they use
                   sensory and laboratory testing. Egg and egg product inspectors are
                   responsible for inspection of the facilities, equipment, and methods of
                   processing as well as the product itself. Since 1996, FSIS has been working to
                   develop a Hazard Analysis and Critical Control Point (HACCP) program for
                   egg products. FSIS requires each egg product establishment to conduct
USDA/OIG-AUDIT/24601-0008-Ch                                                               Page 1
                   laboratory surveillance testing to detect and prevent the presence of
                   Salmonella in egg products marketed to the public. FSIS conducts its own
                   laboratory monitoring program to ensure that the surveillance programs are
                   accomplishing their goal.

                   At the time of the transfer of inspection responsibilities in 1995, FSIS entered
                   into a memorandum of agreement with AMS under which AMS agreed to
                   continue verifying that temperature and labeling requirements were being met
                   by packers of consumer ready shell eggs as a part of the AMS Shell Egg
                   Surveillance Program. According to an AMS official, there were 513 shell
                   egg packers nationwide in FY 2006. FSIS retains direct responsibility for
                   monitoring compliance with temperature and labeling requirements at egg
                   handlers who are not also packers.

                   In addition to domestic inspections, any egg products imported into the
                   United States are required to have been inspected under a USDA-approved
                   system. FSIS’ Office of International Affairs (OIA) is required to verify that
                   the approved system remains equivalent to USDA standards. Canada is the
                   only country with an approved egg product inspection system, exporting over
                   16 million pounds of processed egg products to the U.S. in fiscal years
                   2005 and 2006.

Objectives         Our objective was to evaluate FSIS' monitoring and inspection of egg and egg
                   product processing plants. Specifically, we reviewed the agency's controls
                   designed to ensure that eggs and/or egg products are wholesome,
                   unadulterated, processed under sanitary conditions, stored safely, correctly
                   packaged and properly labeled.




USDA/OIG-AUDIT/24601-0008-Ch                                                                Page 2
Findings and Recommendations
Section 1. Egg Products Inspection Systems and Procedures Need Updating

Finding 1          FSIS Needs To Develop Electronic Monitoring Systems for Egg
                   Products Inspections

                   FSIS has not integrated egg product inspections into HACCP or PBIS, even
                   though these systems have been used in meat and poultry inspections for
                   several years. FSIS officials have stated that although they intend to
                   implement these in the future, PBIS will not be extended to egg products until
                   HACCP has been implemented, and this has been delayed by changes in
                   policy that occurred over several years. In addition, processed egg products
                   are considered to be of lower risk than certain meat and poultry products such
                   as raw ground beef because of the requirement for pasteurization, which
                   reduces the risk of public health threats arising from Salmonella
                   contamination. However, our reviews at six egg processing plants noted
                   concerns such as potential adulteration affecting over 2 million pounds of
                   product, and repeated violations involving the use of restricted eggs,
                   specifically dirty and leaking eggs, in processing operations. This emphasizes
                   the need for HACCP and PBIS to be applied to egg inspections so that these
                   can be incorporated into FSIS’ overall management control structure.

                   Inspections of eggs and egg products were transferred to FSIS from AMS in
                   1995, six years after the implementation of the electronic PBIS that both
                   schedules inspections and records inspection results at meat and poultry
                   establishments. In 1998, three years after taking over egg inspections, FSIS
                   modified PBIS to accommodate the requirements of the new science-based
                   HACCP inspection system which began implementation in meat and poultry
                   establishments at that time.

                   Electronic information technology (IT) systems are critical to FSIS’ oversight
                   of inspection operations at meat and poultry establishments. One of the most
                   important of these systems is PBIS, which in addition to assigning inspection
                   tasks for each establishment, also requires that inspectors record the results of
                   their inspections and upload these using personal computers to the agency’s
                   central database. Noncompliance Reports (NR’s) are also uploaded to the
                   system, making them accessible to FSIS managers and supervisors online.
                   Having such information available makes it possible for agency officials to
                   conduct more efficient reviews to identify corrective actions needed at the
                   establishment, district, or nationwide levels.




USDA/OIG-AUDIT/24601-0008-Ch                                                               Page 3
                                In a prior audit report (No. 24601-3-CH, “Use of Food Safety Information
                                Systems”, dated September 2004) we reported that the agency needed to
                                strengthen its management control processes to ensure that this information
                                was being adequately communicated to users at various locations and
                                operating levels. We also cited the need for better trend analyses, particularly
                                of sanitation-related NR’s. FSIS officials concurred with the need for
                                improvements, and in 2006 FSIS implemented AssuranceNet, an online
                                application that monitors agency performance in various activities such as
                                completion of inspection tasks, In-Plant Performance System (IPPS) 1
                                reviews, and the securing of product samples for microbiological testing.
                                FSIS also created a new position, the district analyst, at each district office to
                                assist managers and frontline supervisors in performing trend analyses and
                                other IT-related functions.

                                The use of management control systems such as AssuranceNet are dependent
                                upon having inspection records available in an electronic format such as that
                                provided by PBIS. However, unlike FSIS inspectors at meat and poultry
                                establishments, inspectors at egg products processing plants still record their
                                inspection results on paper forms which are stored onsite at each
                                establishment. As a result, these records are not available for review by
                                district analysts or by the Technical Service Center (TSC), which generates
                                various exception reports based on inspection data from meat and poultry
                                establishments.

                                FSIS Headquarters officials stated that in the future, inspectors at egg
                                products processing plants would use electronic means to record and report
                                inspection results. However, they stated that since the implementation of
                                HACCP necessitated major changes to PBIS at meat and poultry
                                establishments, the agency would not implement PBIS at egg products
                                processing plants until HACCP was in place. FSIS began developing HACCP
                                for egg products in 1996, but delayed implementation when it was decided
                                that HACCP needed to be applied to inspections of consumer-ready shell
                                eggs in addition to processed egg products. This decision was revised again in
                                2005, when it was determined that HACCP for processed egg products could
                                be implemented independent of an equivalent system for shell eggs. At the
                                time of our audit, FSIS officials stated that a draft proposal to implement
                                HACCP for egg products processed is under development, but until it has
                                completed the clearance process the agency cannot provide timeframes for
                                when it will be implemented.

                                During our visits to six processed egg products plants under two district
                                offices, we noted five occurrences at three plants that required the

1
    IPPS is a review process that frontline supervisors use to assess the work of in-plant inspection personnel. It is not
    currently automated, although some IPPS data is input to the AssuranceNet management control system for monitoring
    purposes.
USDA/OIG-AUDIT/24601-0008-Ch                                                                                       Page 4
                   involvement of the frontline supervisors under FSIS Handbook procedures.
                   At two plants, the inspectors made decisions to release product that was
                   potentially adulterated with foreign materials, without consulting the frontline
                   supervisors as required. Potentially serious sanitation issues occurred over
                   extended time periods at two plants, despite being repeatedly noted by the
                   inspectors, without being referred to the frontline supervisors or district office
                   for further followup and enforcement action. None of the frontline
                   supervisors involved had been previously aware of these situations prior to
                   our audit. Details of the conditions observed are discussed in the following
                   paragraphs.

                          Release of Potentially Adulterated Products

                          We found three instances, at two plants, where processed egg products
                          that were potentially adulterated with foreign materials were released
                          into commerce by FSIS inspectors despite the requirement that the
                          inspector place an immediate hold on the product and notify the
                          frontline supervisor as required by the FSIS memorandum,
                          “Adulteration of Egg Products from Identified Extraneous Material,”
                          dated October 10, 1997. In each of these instances, the inspectors
                          noted the conditions in their reports of Daily Inspection (FSIS Form
                          PY203, which reflects both inspection activity and deficiencies noted)
                          but made the decision to release the product without consulting the
                          frontline supervisor as required. The conditions we noted were as
                          follows:

                          At one plant, the inspector noted flaking paint inside a liquid egg
                          packaging machine over a period of 2 weeks, during which time the
                          machine processed over 1.7 million pounds of product. The inspector
                          observed and documented this condition during morning pre-
                          operational inspections, and instructed establishment employees to
                          scrape the flaking paint from the insides of the machine before
                          permitting the company to start daily operations. Despite the
                          possibility that the paint flakes found on 10 out of 11 consecutive
                          mornings had also found their way into the processed egg products,
                          the inspector decided not to hold the product because he felt the
                          chances of product adulteration would be small, and because the paint
                          flakes would have been difficult to find and remove from the product
                          that had already been processed.

                          On another occasion, the same inspector found pieces of plastic inside
                          a pasteurizing machine during a morning pre-operational check and
                          instructed the establishment employees to re-clean the machine by
                          hand before starting operations. Despite the indication that pieces of
                          plastic might have also gotten into the previous day’s production of
                          over 200,000 pounds of liquid eggs, the inspector released the
USDA/OIG-AUDIT/24601-0008-Ch                                                                Page 5
                        product. Again, he did so on the grounds that if present, the plastic
                        would be difficult to find and because he believed the possibility of
                        contamination was low.

                        At a second plant, the inspector observed and documented an instance
                        in which water being sprayed by an establishment employee to clean a
                        catwalk on a tanker truck got into the open tanker during the
                        unloading of 48,000 pounds of liquid egg whites into a storage tank.
                        The inspector informed management that in the future they would
                        need to unhook the tanker before cleaning or the product would be
                        held. In this instance, however, the inspector allowed the product to be
                        processed and shipped without verifying a plant employee’s statement
                        that the tanker had already finished unloading or contacting the
                        frontline supervisor for guidance.

                        We discussed each of these instances with the responsible frontline
                        supervisors, and in each case were told that the supervisor would have
                        disputed the inspectors’ decisions and required that the product be
                        held until assurances could be provided that the product was not
                        adulterated. We noted these conditions in our reviews of documents at
                        the plants, but the frontline supervisors had not come across them in
                        their reviews of the paper PY203 reports during supervisory visits.
                        Having these records in a more accessible electronic format would not
                        necessarily have revealed these conditions to the frontline supervisors
                        in time for them to hold the product in these specific instances.
                        However, the use of a system such as PBIS would have increased the
                        chances that a frontline supervisor or a district official would have
                        noted these instances sooner and taken action to ensure that they were
                        not repeated.

                        Recurring Deficiencies

                        At two of the six plants we visited (exhibit A), we noted serious,
                        recurring conditions that were repeatedly noted by inspectors on their
                        PY203 forms but which continued to persist. One of these plants
                        averaged 24 deficiencies per month over our 6-month review period
                        that involved “dirty eggs” (with foreign material on the shells) or
                        “leakers” (eggs that are leaking due to cracked shells), as well as an
                        average of 28 other sanitation-related deficiencies. The other plant
                        averaged 13 “dirty egg” and “leaker” deficiencies as well as 66 other
                        sanitation-related deficiencies per month over a 17 month period.
                        FSIS regulations prohibit the use of dirty or leaking eggs in any
                        processed egg product, whether or not it is pasteurized before it leaves
                        the plant. The frontline supervisor had been unaware of these
                        conditions, but as a result of our review one of the plants was issued a
                        letter instructing them to correct the cited conditions.
USDA/OIG-AUDIT/24601-0008-Ch                                                           Page 6
                             We did not note other significant sanitation deficiencies during our
                             plant visits, but the above examples illustrate that need for frontline
                             supervisors, district analysts, and other FSIS management officials to
                             have the capability to perform more extensive inspection record
                             reviews than can be accomplished within the limitations of a paper
                             system of recordkeeping. All of the frontline supervisors we
                             interviewed regarding the above instances stated that they had not
                             been aware of the conditions we noted, which came to light only
                             through more extensive record reviews than a frontline supervisor
                             would typically perform. Most frontline supervisors we interviewed
                             stated that when performing IPPS reviews, they generally review only
                             about a week’s worth of daily inspection reports due to time
                             constraints whereas our reviews that disclosed the problems covered
                             periods of between 3 and 18 months. In each case, the supervisors
                             stated that they would have taken corrective actions to address the
                             problems, or at least discussed the situations with the inspectors to
                             prevent repetition. Because of the pasteurization process required for
                             all processed egg products, the threat of Salmonella outbreaks is
                             reduced. However, this process does not address the problem of
                             adulteration by foreign materials, or issues of product wholesomeness
                             resulting from the use of “dirty eggs” and “leakers.” Further, FSIS
                             depends on its inspection process at the egg products processing
                             plants to assure that the pasteurization process is being properly
                             applied. An FDA official informed us that a total of eight recalls have
                             taken place since 2002 involving processed egg products, although in
                             each case these were initiated by the plants themselves rather than by
                             FDA.

                      FSIS continues to progress in applying IT technology such as the
                      AssuranceNet system to meat and poultry inspections, but egg inspections are
                      still performed and documented in essentially the same manner as when AMS
                      operated the program before the 1995 transition. By entering inspection data
                      into an IT system, FSIS officials can analyze reported deficiencies for trends
                      and use these to identify problems that require corrective actions such as
                      training for inspectors. To provide adequate assurances that only safe and
                      wholesome egg products are marketed to the public, it is important that FSIS
                      update and modernize its monitoring and control systems for egg products to
                      the same standard that is applied to meat and poultry establishments.

Recommendation 1 Incorporate egg product inspection activities into FSIS’ IT systems and
                 HACCP, allowing them to interface with the agency’s current and planned IT
                 and management control systems.




USDA/OIG-AUDIT/24601-0008-Ch                                                               Page 7
Agency Response        FSIS officials are developing a proposed rule that would require egg product
                       plants to develop and implement HACCP Systems.

                       They are also developing a new IT system to track domestic inspection
                       activities which will replace PBIS. Until this is completed, they are
                       converting existing reports into electronic formats. This is expected to be
                       completed by June 2008.

OIG Position           We accept management decision for this recommendation.

Recommendation 2 Conduct trend analyses to identify any serious or widespread deficiencies at
                 egg products processing plants and take appropriate corrective actions such as
                 training or closer supervision for inspectors.

Agency Response        Staff in the Policy Analysis Division will conduct trend analyses to identify
                       any serious or widespread deficiencies at egg products processing plants and
                       take appropriate corrective actions which will begin by March 2008.

OIG Position           We accept management decision for this recommendation.




USDA/OIG-AUDIT/24601-0008-Ch                                                                Page 8
Section 2. Importing of Processed Egg Products

Finding 2               FSIS Does Not Have Adequate Controls Over Imported Egg
                        Products

                        In a July 2003 review of 37 Canadian slaughter and processing
                        establishments, FSIS representatives noted numerous deficiencies with
                        Canada’s inspection system. Deficiencies were also found at four of the six
                        egg products processing plants visited, including “dirty eggs” and “leakers” at
                        two plants, but no followup visits to Canadian egg products processing plants
                        have been made since then. Followup visits were performed at a number of
                        Canadian meat and poultry establishments in 2005, but egg products
                        processing plants were not included despite the fact that at meat and poultry
                        establishments overall the same problems continued to be noted. FSIS
                        officials stated that this was because eggs are considered to be of lower risk
                        than certain meat and poultry products. As a result, there is reduced assurance
                        that these conditions have been corrected with regard to the 10.3 million
                        pounds of processed egg products imported into the United States from
                        Canada in 2005, and the 5.9 million pounds imported in 2006.

                        FSIS regulations state that egg products can only be imported from countries
                        determined to have an equivalent processing and inspection system. After
                        initial determination of equivalency, a system is to be reviewed as often as
                        deemed necessary to determine if the system remains equivalent.2 Currently,
                        Canada is the only country that exports processed egg products to the United
                        States.

                        In July 2003, FSIS conducted an equivalency review of the Canadian Food
                        Inspection Agency (CFIA) to evaluate its controls over slaughter, processing,
                        and egg product processing plants identified as eligible to export products to
                        the United States. This review disclosed extensive problems in the meat and
                        poultry areas, including a failure to follow HACCP and a lack of daily
                        inspections at some processing establishments. Egg products are not covered
                        under HACCP or Sanitation Standard Operation Procedures (SSOP), so the
                        operations of the six egg products processing plants visited were not
                        evaluated for these. However, the review did raise concerns about sanitation
                        inspections at four of the six plants, including observations that one plant was
                        breaking “dirty eggs” and a second plant was breaking “leakers” as part of
                        their processing operations. Under FSIS regulations, eggs in this condition
                        are not permitted to be used in any processed egg products.

                        At the end of the review, FSIS received assurances from the Canadian
                        inspection system that all the reported problems noted in 2003 had been
2
    9 CFR 590.910 (a)
    USDA/OIG-AUDIT/24601-0008-Ch                                                              Page    9
                      corrected. When FSIS conducted a followup review in 2005, many of the
                      same conditions reported in 2003 for meat and poultry inspections still
                      persisted. FSIS officials stated that no egg products processing plants were
                      included in the 2005 visits, because the problems noted there in 2003 were
                      not as significant as for the meat and poultry establishments. Also, they stated
                      that eggs are generally considered to be of lower risk than some meat
                      products such as raw ground beef, because of pasteurization.

                      FSIS officials stated that they have not received any reports of health
                      problems arising from egg products coming out of Canada. The
                      2003 finding that the use of “dirties” and “leakers” was not being adequately
                      addressed by CFIA at one-third of the plants visited, however, remains a
                      concern. The FSIS report dated July 31, 2003, stated that the cited problems
                      were corrected at the plants at the time of the review. However, the fact that
                      no Canadian egg processing plant has been visited by FSIS in nearly 4 years,
                      as well as the fact that other problems found in 2003 continued to exist in
                      2005, raises the concern that problems may continue to exist at egg
                      processing plants as well. In August 2006, Canada had 15 egg processing
                      plants.

                      An official of FSIS’ International Equivalence Staff stated that the next time a
                      review of Canadian plants is conducted, they may include egg plants in their
                      next review of Canadian establishments. However, FSIS does not regularly
                      do equivalency reviews of eggs due to the lower risks involved. This is also
                      due to FSIS’ lack of adequate procedures defining how often the egg
                      inspection area is to be reviewed for a country to maintain equivalence. While
                      we concur that the health risks associated with processed egg products is less
                      than with meat or poultry because of pasteurization, the product
                      wholesomeness issues disclosed earlier should warrant followup within a
                      reasonable timeframe. Therefore, we believe that FSIS officials should ensure
                      that at least some egg processing plants are included in the next scheduled
                      Canadian equivalency review. In addition, FSIS officials should establish
                      reasonable minimum timeframes to review the foreign egg inspection systems
                      for maintaining equivalency.

Recommendation 3 Conduct a followup of egg product processing plants in the next Canadian
                 equivalency review, and in future instances where visits are made to meat and
                 poultry establishments.

Agency Response       FSIS officials stated that they conducted an audit of the Canadian Food
                      Inspection Agency in May 2007. The audit included four egg product
                      processing plants, two of which were the plants referenced in the OIG report
                      that had the findings related to breaking of “dirty eggs” and “leakers.” They
                      concluded that the previous issues related to the breaking of ineligible eggs
                      had been effectively addressed and corrected.

 USDA/OIG-AUDIT/24601-0008-Ch                                                               Page 10
                  FSIS management has agreed that future audits of Canada will include, as
                  part of the establishment component, a representative selection of egg
                  products plants.

OIG Position      We accept management decision for this recommendation.




USDA/OIG-AUDIT/24601-0008-Ch                                                     Page 11
Scope and Methodology
                     We performed audit work at FSIS Headquarters in Washington D.C., at the
                     District 50 Office in Lombard, Illinois, and the District 25 Office in Des
                     Moines, Iowa. Our judgmental selections for our district office visits were
                     based on the number and the variety of egg product processing plants and the
                     proximity to an office of Program Evaluation, Enforcement, and Review
                     (OPEER) regional office. We also judgmentally-selected six egg product
                     plants to visit, three located in Ohio and three located in Iowa. Our plant
                     selection was based on Salmonella testing history, proximity of plants to each
                     other, and to ensure that all areas of egg product inspection activities were
                     subject to review. We performed our fieldwork from September 2006 through
                     May 2007.

                     At FSIS Headquarters, we held discussions with officials from the Office of
                     Public Health and Science (OPHS), the Office of Field Operations, OIA,
                     OPEER, and Office of Policy, Program, and Employee Development. We
                     also conducted interviews with AMS Headquarters and field personnel. We
                     reviewed OIA Canadian Egg equivalency review reports to determine if FSIS
                     had adequately reviewed the international egg inspection area. We reviewed
                     the Pasteurized Egg Products Recognized laboratory client listings to
                     determine if all egg plants conducting Salmonella surveillance testing used
                     OPHS recognized labs. We also reviewed AMS’ temperature verification
                     records and OPEER’s case files to determine if all shell egg plants were
                     visited each quarter and all temperature violations were followed up on.

                     At two district offices, we interviewed district officials and reviewed egg
                     product handbooks for completeness.

                     At the six selected egg products processing plants, we interviewed front line
                     supervisors and egg product inspectors, and reviewed documentation to
                     evaluate the egg product inspectors’ performance of their prescribed duties.
                     At the plants, we observed operations, and reviewed inspection reports to
                     determine if timely and effective corrective actions were taken for plant level
                     deficiencies. We also reviewed the inspectors’ egg products handbooks to
                     determine if they were current.

                     We interviewed an FDA official to obtain information on recalls of FSIS-
                     inspected egg products. We also interviewed an official from the CDC, and
                     reviewed documentation they provided us, to identify public health risks
                     associated with both shell eggs and processed egg products.

                 The audit was conducted in accordance with Government Auditing Standards
                 issued by the Comptroller General of the United States.
USDA/OIG-AUDIT/24601-0008-Ch                                                     Page 12
Exhibit A – Locations Visited
                                                                              Exhibit A – Page 1 of 1


                                      Sites Visited
                                                Est. #1 (broke eggs, pasteurized and made
                                                liquid, frozen, and dried egg products)
                    District 25, Des Moines, Est. #2 (pasteurized and made liquid, egg
                                IA              products)
                                                Est. #3 (broke eggs, pasteurized and made
FSIS Headquarters
                                                liquid, frozen, and dried egg products)
 Washington D.C.
                                                Est. #4 (broke eggs, pasteurized and made
                                                liquid, frozen, and dried egg products)
                    District 50, Lombard IL Est. #5 (broke eggs, pasteurized, and made
                                                liquid and frozen egg products)
                                                Est. #6 (broke eggs)




USDA/OIG-AUDIT/24601-0008-Ch                                                              Page 13
Exhibit B – Agency Response
                               Exhibit B – Page 1 of 2




USDA/OIG-AUDIT/24601-0008-Ch               Page 14
Exhibit B – Agency Response
                               Exhibit B – Page 2 of 2




USDA/OIG-AUDIT/24601-0008-Ch               Page 15
